Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    INAPPROPRIATE AND 

  QUESTIONABLE BILLING BY 

  MEDICARE HOME HEALTH 

         AGENCIES





                    Daniel R. Levinson

                     Inspector General


                      August 2012 

                     OEI-04-11-00240 

EXECUTIVE SUMMARY: INAPPROPRIATE AND QUESTIONABLE BILLING
BY MEDICARE HOME HEALTH AGENCIES
OEI-04-11-00240

WHY WE DID THIS STUDY

In 2010, Medicare paid $19.5 billion to 11,203 home health agencies (HHA) for services
provided to 3.4 million beneficiaries. Recent investigations and prior Office of Inspector
General studies have found that home health services are vulnerable to fraud, waste, and
abuse.

HOW WE DID THIS STUDY

We analyzed data from home health, inpatient hospital, and skilled nursing facility claims
from 2010 to identify inappropriate home health payments. In addition, we identified
HHAs that billed unusually high amounts according to at least one of our six measures of
questionable billing. Although these six measures indicate potential fraud, there may be
legitimate reasons for an HHA to exceed the threshold for unusually high billing on any
of the six measures. We also determined the geographic locations of HHAs that had
questionable billing.

WHAT WE FOUND

In 2010, Medicare inappropriately paid $5 million for home health claims with three
specific errors: overlapping with claims for inpatient hospital stays, overlapping with
claims for skilled nursing facility stays, or billing for services on dates after beneficiaries’
deaths. Further, we found that approximately one in every four HHAs exceeded the
threshold that indicated unusually high billing for at least one of our six measures of
questionable billing. Overall, HHAs with questionable billing were located mostly in
Texas, Florida, California, and Michigan.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) (1) implement
claims processing edits or improve existing edits to prevent inappropriate payments for
the three specific errors we reviewed, (2) increase monitoring of billing for home health
services, (3) enforce and consider lowering the 10‐percent cap on the total outlier
payments an HHA may receive annually, (4) consider imposing a temporary moratorium
on new HHA enrollments in Florida and Texas, and (5) take appropriate action regarding
the inappropriate payments we identified and HHAs with questionable billing. CMS
concurred with all five recommendations; however, it disagreed with our estimate of the
inappropriate payments for home health claims overlapping with claims for inpatient
hospital stays and skilled nursing facility stays.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................12 

           In 2010, Medicare inappropriately paid approximately
           $5 million for home health claims with three specific errors ........12 

           Approximately one in every four HHAs had questionable
           billing .............................................................................................14 

           Eighty percent of HHAs with questionable billing were located
           in four States ..................................................................................17 

Conclusion and Recommendations ............................................................20 

           Agency Comments and Office of Inspector General Response.....22 

Appendix....................................................................................................24 

           A: Number and Percentage of Home Health Agencies With 

           Questionable Billing by State, 2010 ..............................................24 

           B: Agency Comments ...................................................................26 

Acknowledgments......................................................................................32 

                   OBJECTIVES
                   1.	 To determine the extent to which home health agencies (HHA)
                       submitted Medicare claims that inappropriately overlapped with
                       claims for inpatient hospital stays, overlapped with claims for skilled
                       nursing facility stays, or were billed for services on dates after
                       beneficiaries’ deaths.
                   2.	 To identify and describe HHAs that exhibited questionable billing.

                   BACKGROUND
                   Medicare Parts A and B cover home health services furnished by HHAs to
                   Medicare beneficiaries.1, 2 In 2010, Medicare paid $19.5 billion to
                   11,203 HHAs for home health services provided to 3.4 million
                   beneficiaries.3 Home health services include part-time or intermittent
                   skilled nursing services, physical therapy, occupational therapy,
                   speech-language pathology services, part-time or intermittent home health
                   aide services, medical social services, and medical supplies and durable
                   medical equipment.4, 5
                   Home health services are vulnerable to fraud, waste, and abuse. In past
                   years, OIG has raised concerns about HHAs and the billing of home health
                   services.6 Additionally, recent investigations have illustrated a variety of
                   fraud schemes involving HHAs. For example, a Texas physician was


                   1
                     Social Security Act, §§ 1814(a)(2)(C) and 1835(a)(2)(A), 42 U.S.C. §§ 1395f(a)(2)(C) and
                   1395n(a)(2)(A).
                   2
                     Part A covers home health services beginning within 14 days of a discharge from a hospital
                   or skilled nursing facility. Social Security Act, § 1861(tt), 42 U.S.C. § 1395x(tt), and the
                   Centers for Medicare & Medicaid Services (CMS), Medicare Benefit Policy Manual,
                   Pub. 100-02, ch.7, § 60.1. Part B covers home health services not related to an inpatient stay.
                   Social Security Act, § 1832(a), 42 U.S.C. § 1395f(a), and CMS, Medicare Benefit Policy
                   Manual, Pub. 100-02, ch. 7, § 60.3.
                   3
                     Office of Inspector General (OIG) analysis of 2010 National Claims History Part A Standard
                   Analytical File.
                   4
                     Social Security Act, § 1861(m), 42 U.S.C. § 1395x(m).
                   5
                     Part-time or intermittent skilled nursing or home health aide services are services furnished
                   for a total of fewer than 8 hours each day and 28 or fewer hours each week (or, subject to
                   review on a case-by-case basis as to the need for care, fewer than 8 hours each day and 35 or
                   fewer hours per week). Social Security Act, § 1861(m), 42 U.S.C. § 1395x(m).
                   6
                     OIG, Review of Compliance with Billing Provisions Under the Prospective Payment System
                   for Home Health Agencies’ Therapy Services at Connecticut Home Health Care, Inc.,
                   A-01-04-00507, May 2005. See also OIG, Review of Selected Paid Claims With Therapy
                   Services Submitted to Medicare by Red Oak Home Health Services for the Period October 1,
                   2002, Through September 30, 2003, A-09-04-00050, July 2005, and OIG, Review of Selected
                   Paid Claims with Therapy Services Submitted to Medicare by Total Patient Care Home
                   Health, LLC for the Period October 1, 2002, Through September 30, 2003, A-04-05-02000,
                   September 2005.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                       1
                   indicted in February 2012 for allegedly certifying or directing the
                   certification of beneficiaries’ plans of care so that HHAs were able to bill
                   Medicare for home health services that were not medically necessary or
                   were not provided.7 This physician also allegedly performed unnecessary
                   home visits and ordered unnecessary medical services. This is the largest
                   alleged home health fraud scheme in U.S. history; HHAs allegedly
                   fraudulently billed more than $350 million to Medicare. Another alleged
                   home health fraud scheme involved “beneficiary sharing”—a situation in
                   which multiple HHAs fraudulently bill Medicare for the same
                   beneficiaries. According to a September 2011 indictment, an individual
                   allegedly sold beneficiary information to 100 different HHAs in Houston,
                   Texas.8 These HHAs then allegedly used this beneficiary information to
                   bill Medicare for services that were unnecessary or were never provided.
                   Medicare Home Health Services
                   To qualify for home health services, Medicare beneficiaries must (1) be
                   confined to the home (i.e., homebound); (2) be in need of intermittent
                   skilled nursing care or physical, speech, or continuing occupational
                   therapy; (3) be under the care of a physician; and (4) be under a plan of
                   care established and periodically reviewed by a physician.9, 10, 11 For home
                   health care starting on or after January 1, 2011, the certifying physician
                   must document—prior to certifying the beneficiary’s eligibility—that he
                   or she (or an allowed nonphysician practitioner) had a face-to-face




                   7
                     Department of Justice (DOJ) news release, Dallas Doctor Arrested for Alleged Role in
                   Nearly $375 Million Health Care Fraud Scheme, February 28, 2012. Accessed at
                   http://www.justice.gov/opa/pr/2012/February/12-crm-260.html on March 12, 2012.
                   Additionally, these certifications allegedly resulted in the fraudulent billing of more than
                   $24 million to Medicaid.
                   8
                     OIG news release, Medicare Fraud Strike Force Charges 91 Individuals for Approximately
                   $295 Million in False Billing, September 7, 2011. Accessed at
                   http://www.hhs.gov/news/press/2011pres/09/20110907c.html on September 7, 2011.
                   9
                     Social Security Act, §§ 1814(a)(2)(C) and 1835(a)(2)(A), 42 U.S.C. §§ 1395f(a)(2)(C) and
                   1395n(a)(2)(A).
                   10
                      A beneficiary is considered to be confined to the home (or “homebound”) when he or she
                   has a condition due to an illness or injury that restricts his or her ability to leave his or her
                   residence except with the aid of supportive devices, the use of special transportation, or the
                   assistance of another person or if leaving home is medically contraindicated. CMS, Medicare
                   Benefit Policy Manual, Pub. 100-02, ch. 7, § 30.1.1.
                   11
                      For purposes of benefit eligibility, “intermittent skilled nursing care” means care that is
                   provided or needed fewer than 7 days each week, or less than 8 hours of each day for periods
                   of 21 days or less (with extensions in exceptional circumstances when the need for additional
                   care is finite and predictable). Social Security Act, § 1861(m), 42 U.S.C. § 1395x(m).

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                          2
                   encounter with the beneficiary.12 This documentation must include a brief
                   narrative explaining how the patient’s clinical condition during that
                   encounter supports the patient’s homebound status and need for skilled
                   services.13
                   A beneficiary cannot simultaneously receive home health services and
                   care at an inpatient hospital or skilled nursing facility.14, 15 However, an
                   HHA may arrange with a hospital, skilled nursing facility, or rehabilitation
                   center to provide home health services on an outpatient basis if the
                   services require use of equipment that cannot be made available in the
                   home.16
                   Medicare Payment System for Home Health Services
                   CMS uses a prospective payment system that establishes a predetermined
                   rate for each 60-day episode of home health care.17 The payment rate is
                   adjusted for beneficiaries’ health conditions and care needs, as well as for
                   the geographical region.18 HHAs with beneficiaries who require a greater
                   number of services receive a higher payment rate per 60-day episode.19
                   There are no limits to the number of 60-day episodes that eligible
                   beneficiaries may receive; however, the home health services provided




                   12
                      CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 7, § 30.5.1. For home health care 

                   starting on or after January 1, 2012, for patients admitted to home health agencies 

                   immediately after an acute or postacute stay, a physician who cared for the patient in an acute

                   or postacute facility can inform the certifying physician regarding his or her 

                   face-to-face encounters with the patient. 42 CFR § 424.22(a)(1)(v), as amended by final rule 

                   “Medicare Program; Home Health Prospective Payment System Rate Update for Calendar 

                   Year
                   13
                         2012” (76 Fed. Reg. 68526 (Nov. 4, 2011)), effective January 1, 2012.

                      CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 7, § 30.5.1.1. This encounter 

                   must occur no more than 90 days prior to the start of home health care or within 30 days after 

                   the start of care. 

                   14
                      CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 10, § 30.9. 

                   15
                      Ibid. A beneficiary can receive home health services on the day of admission to or on the 

                   day of discharge from an inpatient hospital or skilled nursing facility. However, Medicare 

                   systems will reject a home health claim containing dates for services provided during a 

                   beneficiary’s inpatient hospital stay or skilled nursing facility stay. If a beneficiary has a 

                   leave of absence from an inpatient stay, then he or she can receive home health services

                   during that leave of absence. CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 3,

                   § 40.2.6, and ch. 6, § 40.3.5.2.

                   16
                      CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 7, § 30.1.1. 

                   17
                      Social Security Act, § 1895(a), 42 U.S.C. § 1395fff(a). 

                   18
                      Social Security Act, §§ 1895(b)(4)(B) and 1895(b)(4)(C), 42 U.S.C. §§ 1395fff(b)(4)(B) 

                   and 1395fff(b)(4)(C). 

                   19
                      Medicare Payment Advisory Commission (MedPAC), Home Health Care Services

                   Payment System, October 2011. 


Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                        3
                   must be reasonable and necessary.20, 21 Beneficiaries generally do not
                   make copayments for home health services.22
                   Under the Medicare prospective payment system, at the time that the CMS
                   contractor servicing an HHA’s area receives the HHA’s claim for a 60-day
                   episode of care, the HHA receives an initial partial payment of the
                   estimated rate for the full episode.23 The HHA receives the remaining
                   payment at the end of the 60-day episode. The total payment is the sum of
                   the initial and remaining payments, unless there is an adjustment.24 An
                   example of a payment adjustment is a partial episode payment that occurs
                   when a beneficiary transfers to another home health provider during a
                   60-day episode.
                   Medicare makes additional payments, known as outlier payments, to
                   HHAs that provide services to beneficiaries who incur unusually high
                   costs.25 Beginning in January 2010, CMS implemented an agency-level
                   outlier cap limiting total outlier payments for an individual HHA to a
                   maximum of 10 percent of the HHA’s annual total Medicare home health
                   payments.26
                   Additionally, Medicare adjusts the 60-day episode payment rate depending
                   on whether the episode is an early episode (i.e., first or second) or a late
                   episode (i.e., third or subsequent) in a sequence of episodes.27 For
                   episodes to be considered sequential, the next episode must begin within




                   20
                      CMS, Home Health PPS: Overview. Accessed at http://www.cms.gov/HomeHealthPPS/ on
                   July
                   21
                        21, 2011.
                      Social Security Act, § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A).
                   22
                      CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 7, § 60.4. There is no
                   coinsurance, copayment, or deductible for home health services and supplies other than
                   (1) coinsurance for durable medical equipment (DME) covered as a home health service and
                   (2) deductible and coinsurance for osteoporosis drugs, which are part of the home health 

                   benefit paid only under Part B. The coinsurance amount for DME and osteoporosis drugs 

                   furnished as home health services is 20 percent of the fee schedule amount for the services. 

                   23
                      CMS, Home Health PPS: Overview. Accessed at http://www.cms.gov/HomeHealthPPS/ on 

                   July 21, 2011. 

                   24
                      Ibid. 

                   25
                      Social Security Act, § 1895(b)(5), 42 U.S.C. § 1395fff(b)(5). 

                   26
                      74 Fed. Reg. 58078 and 58080-58087 (Nov. 10, 2009). See also CMS, Medicare Claims
                   Processing Manual, Pub. 100-04, ch. 10, § 10.1.21. The Patient Protection and Affordable
                   Care Act (Affordable Care Act) made the 10-percent agency-level cap a permanent statutory
                   requirement beginning with 2011 by adding a new paragraph (B) to section 1895(b)(5) of the
                   Social Security Act. Affordable Care Act, P.L. 111-148, § 3131(b)(2)(C) (adding Social
                   Security Act, § 1895(b)(5)(B), 42 U.S.C. 1395fff(b)(5)(B)).
                   27
                      CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 10, § 10.1.19.2.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                     4
                   60 days of the previous episode’s end date.28 Late episodes have higher
                   payment rates than early episodes.29
                   Certificate of Need for Home Health Agencies
                   In order to participate in Medicare, HHAs must be licensed pursuant to
                   applicable State or local law.30 Some States require an HHA to obtain a
                   Certificate of Need to be eligible to seek State licensure.31 Generally, a
                   Certificate of Need program is intended to ensure that new health care
                   facilities (e.g., HHAs) in the State (1) are developed as needed, (2) are the
                   most cost effective approach to meeting identified needs, (3) are
                   geographically accessible, (4) are financially viable, and (5) will not have
                   a significant negative impact on the viability of other health care facilities
                   or the quality and cost of the health care services that these other facilities
                   provide. In addition, a Certificate of Need program is intended to ensure
                   that services in the State (1) are of high quality and (2) are affordable by
                   patients.
                   As of January 2012, 17 States and the District of Columbia have
                   Certificate of Need policies that limit the number of HHAs in operation.
                   The remaining 33 States do not require Certificates of Need for HHAs.
                   Detecting and Deterring Medicare Fraud and Abuse
                   CMS relies partly on contractors to safeguard the Medicare program from
                   fraud and abuse. CMS requires these contractors to conduct activities to
                   prevent improper payments and identify fraud and abuse. Specifically,
                   CMS contracts with Home Health and Hospice Medicare Administrative
                   Contractors (MAC) and Zone Program Integrity Contractors (ZPIC) to
                   perform these activities for home health services.32
                   MACs’ primary responsibility is to process and pay Medicare home health
                   and hospice claims. These contractors are also responsible for conducting
                   prepayment and postpayment claim review and targeted provider
                   education.33 MACs create local coverage determinations and associated

                   28
                   29
                      CMS, Medicare Benefit Policy Manual, Pub. 100-02, ch. 7, §§ 10.3 and 10.4.
                      MedPAC, Home Health Care Services Payment System, October 2011. Assuming that
                   other factors affecting payment, such as the beneficiary’s health condition and care needs,
                   remain the same.
                   30
                      Social Security Act § 1861(o)(4), 42 U.S.C. § 1395x. See also 42 CFR § 484.12(a). If
                   State or local law provides for licensure of HHAs, an HHA not subject to such licensure must
                   be approved by the State or local licensing agency as meeting the licensure standards.
                   31
                      Certificate of Need is a State-specific issue, decided by each State through the health
                   planning process. CMS does not participate in States’ health planning processes.
                   32
                      The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. 108-
                   173 § 911, required CMS to replace its current claims processing contractors (fiscal
                   intermediaries and carriers) with Medicare Administrative Contractors. Also, CMS is
                   replacing the legacy benefit integrity contractors, Program Safeguard Contractors, with
                   ZPICs.
                   33
                      CMS, Medicare Program Integrity Manual, Pub. 100-08, ch.1, § 1.3.1.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                     5
                   articles and use proactive data analysis to monitor areas of
                   vulnerability.34, 35 CMS and these contractors also implement and use
                   claims processing edits (i.e., system processes) to prevent improper
                   payments. For example, one such edit is intended to prevent payment of
                   claims with dates of service after a beneficiary’s death.
                   ZPICs identify cases of suspected fraud, develop them thoroughly and in a
                   timely manner, take immediate action to ensure that Medicare funds are
                   not inappropriately paid and that inappropriate payments are identified,
                   and refer cases of potential fraud to law enforcement.36 On occasion,
                   CMS also contracts with ZPICs for special demonstration projects that
                   combat fraud and abuse in a specific Medicare program and/or geographic
                   area.
                   Additionally, CMS safeguards the Medicare program through its
                   predictive analytics system and its authority to impose a temporary
                   enrollment moratorium. As of June 2011, CMS implemented a predictive
                   analytics system that analyzes all Medicare Part A and B claims to identify
                   potential fraud.37 This system builds profiles of Medicare providers (e.g.,
                   HHAs) that enable CMS to create risk scores.38 These risk scores estimate
                   the likelihood of fraud and identify potentially fraudulent claims and
                   billing patterns.
                   CMS may also impose a temporary moratorium on the enrollment of new
                   Medicare providers of a particular type (e.g., HHAs) and/or in a particular
                   geographic location to safeguard Medicare payments.39 For example,
                   CMS may impose this moratorium if—in consultation with OIG (and/or
                   DOJ) and with the approval of the CMS Administrator—it identifies a
                   particular provider type and/or any particular geographic area as having a




                   34
                      Local coverage determinations are decisions made by claims processing contractors (e.g., 

                   MACs) on a contractorwide basis regarding whether a particular item or service is considered

                   “reasonable and necessary.” Any additional information that a contractor wants to 

                   communicate to providers—for example, information regarding billing or coding—would be 

                   placed in an associated article, known as a local coverage article. 

                   35
                      Proactive data analysis includes identifying patterns of potential billing errors through data 

                   analysis and evaluation of other information. 

                   36
                      CMS, Medicare Program Integrity Manual, Pub. 100-08, ch. 1, § 1.7.B. 

                   37
                      CMS, Predictive Modeling Analysis of Medicare Claims, MLN Network, November 2011. 

                   Accessed at https://www.cms.gov/MLNMattersArticles/Downloads/SE1133.pdf on 

                   February 27, 2012. 

                   38
                      The predictive analytics system also builds profiles on networks, billing patterns, and
                   beneficiary utilization. 

                   39
                      42 CFR § 424.570 (a)(1). CMS may also impose a temporary enrollment moratorium on 

                   new Medicare suppliers.


Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                          6
                   significant potential for Medicare fraud, waste, or abuse.40 A temporary
                   moratorium may be imposed for 6 months, with the option to extend.
                   Related Office of Inspector General Work
                   In 2012, OIG found that 98 percent of medical records document that
                   Medicare beneficiaries met coverage requirements for home health
                   services.41 However, HHAs submitted 22 percent of claims in error
                   because services were unnecessary or claims were coded inaccurately,
                   resulting in $432 million in improper payments. This review assessed
                   HHAs’ medical records for beneficiaries but did not determine whether
                   those records accurately reflected beneficiaries’ medical conditions. This
                   review did not involve visiting beneficiaries to confirm their homebound
                   status, nor did it determine whether the care provided was medically
                   necessary.
                   In 2009, OIG found aberrant billing patterns in home health outlier
                   payments in 24 counties nationwide.42 One county in Florida—
                   Miami-Dade County—accounted for more home health outlier payments
                   in 2008 than the rest of the Nation combined.
                   In 2006, OIG found that HHAs improperly coded claims to overstate the
                   severity of the beneficiaries’ conditions, resulting in overpayments.43 OIG
                   also found that contractors did not perform prepayment edits or
                   postpayment analyses of claims data to prevent and detect overpayments.
                   Currently, OIG is conducting a companion study on Medicare contractor
                   activities to identify and address improper payments and potential fraud
                   and abuse in home health, as well as CMS’s oversight of these
                   contractors.44




                   40
                       42 CFR § 424.570 (a)(2)(iv). Other reasons why CMS may impose a temporary enrollment
                   moratorium include: (1) CMS determines that there is a significant potential for fraud, waste,
                   or abuse with respect to a particular provider or supplier type and/or particular geographic
                   area; (2) a State Medicaid program has imposed a moratorium on a group of Medicaid
                   providers or suppliers that are also eligible to enroll in the Medicare program; and (3) a State
                   has imposed a moratorium on enrollment in a particular geographic area and/or on a particular
                   provider
                   41        or supplier type. 42 CFR § 424.570(a)(2)(i)-(a)(2)(iii).
                       OIG, Coverage Requirements and Payment Accuracy for Medicare Home Health Claims, 

                   OEI-01-08-00390, March 2012. 

                   42
                      OIG, Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade County 

                   and Other Geographic Areas in 2008, OEI-04-08-00570, November 2009. 

                    43
                       OIG, Review of Home Health Agencies’ Billing for Services Preceded by a Hospital 

                   Discharge, A-01-04-00527, March 2006. 

                   44
                       OEI-04-11-00220, in progress. 


Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                        7
                   METHODOLOGY
                   This study is based on our analysis of home health claims from
                   100-percent paid claims data from CMS’s National Claims History Part A
                   Standard Analytical File for 2010.45 Our analysis included both full and
                   partial episode claims.
                   We also analyzed paid inpatient claims from hospitals and skilled nursing
                   facilities for home health beneficiaries from the Part A Standard Analytical
                   File. We used the beneficiary’s Health Insurance Claim Number to link
                   these inpatient hospital and skilled nursing facility claims to the home
                   health claims. Additionally, we used CMS’s Enrollment Data Base to
                   identify beneficiaries with dates of death.
                   Identification of Inappropriate Medicare Payments for Home
                   Health Claims
                   We analyzed the home health claims data to determine the number of
                   home health claims that (1) inappropriately overlapped with claims for
                   inpatient hospital stays, (2) inappropriately overlapped with claims for
                   skilled nursing facility stays, or (3) were billed for services on dates after
                   beneficiaries’ deaths. We also calculated the total inappropriate Medicare
                   payments for these home health services.
                   First, we identified home health claims that overlapped with claims for
                   inpatient hospital stays or skilled nursing facility stays. According to
                   CMS policy, institutional claims for inpatient hospital stays and skilled
                   nursing facility stays have priority over claims for home health services.46
                   When a home health claim contains dates of service that overlap with
                   dates of an inpatient hospital stay or a skilled nursing facility stay, that
                   home health claim is rejected regardless of whether it is received before or
                   after the institutional claim.
                   We excluded appropriate instances of overlap, which are instances when
                   beneficiaries receive home health services on the dates of admission to or
                   on the dates of discharge from inpatient hospitals or skilled nursing
                   facilities or when beneficiaries receive home health services during leaves
                   of absence from inpatient stays. We considered the home health claim to
                   have an inappropriate instance of overlap if a home health service was
                   provided during an inpatient hospital stay or skilled nursing facility stay
                   and a leave of absence did not occur. For home health claims
                   inappropriately overlapping with claims for inpatient hospital stays or
                   skilled nursing facility stays, we summed the payment amounts to


                   45
                        We excluded all claims with a reimbursement amount of zero.
                   46
                        CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 10, § 30.9.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)           8
                   calculate the overall amount that Medicare inappropriately paid for these
                   claims.
                   Next, we identified home health episodes that started after beneficiaries’
                   deaths. A beneficiary’s death during an episode results in a full payment
                   for that episode.47 However, a Medicare payment for a home health
                   episode that starts after a beneficiary’s death is an inappropriate payment.
                   After identifying beneficiaries for whom HHAs billed Medicare for home
                   health services in 2010, we used CMS’s Enrollment Data Base to identify
                   those beneficiaries who died before or during 2010. For home health
                   claims in which beneficiaries’ dates of death preceded the episodes’ start
                   dates, we summed the payment amounts to calculate the overall amount
                   that Medicare inappropriately paid for these services.
                   Identification of HHAs That Had Questionable Billing
                   We first identified all home health claims with dates of service ending in
                   2010. In total, we identified approximately 6.96 million Medicare claims
                   for both full and partial home health episodes billed by 11,203 HHAs. To
                   identify HHAs that had questionable billing, we first identified those
                   HHAs that submitted at least 20 claims in 2010.48 These included
                   92 percent (10,341) of the 11,203 HHAs and accounted for 6.88 million
                   claims.
                   We next identified HHAs that had questionable billing. We developed six
                   measures of questionable billing based on the results of past OIG analyses
                   and fraud investigations related to home health services, as well as on
                   input from CMS staff and contractors. We considered an HHA’s billing to
                   be unusually high, or questionable, on each of the six measures if it was
                   greater than the 75th percentile plus 1.5 times the interquartile range.49
                   The six measures of questionable billing we developed were:
                       High average outlier payment amount per beneficiary. Medicare
                        makes outlier payments to HHAs that provide services to beneficiaries
                        who incur unusually high costs. We based this measure on the total
                        outlier payments each HHA was paid in 2010 relative to the number of
                        beneficiaries for whom the HHA billed Medicare in 2010. We also
                        calculated each HHA’s total outlier payments relative to total Medicare
                        payments in 2010.

                   47
                      CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 10, § 10.1.16.
                   48
                      HHAs that submitted fewer than 20 claims represented 8 percent of all HHAs and
                   approximately $18 million (or 0.1 percent) of Medicare payments for home health services in
                   2010.
                   49
                      This is a standard exploratory method for identifying members of a population with
                   unusually high values on a given statistic compared to the rest of the population when no
                   established benchmarks exist. See J.W. Tukey, Exploratory Data Analysis, Addison-Wesley,
                   1977.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                    9
                   	 High average number of visits per beneficiary. We based this measure
                      on the total number of visits each HHA billed in 2010 relative to the
                      number of beneficiaries for whom the HHA billed Medicare in 2010.
                   	 High percentage of beneficiaries for whom other HHAs billed
                      Medicare. When multiple HHAs bill for services provided to the same
                      beneficiary in a given period, there is potential for fraud (i.e.,
                      beneficiary sharing). We based this measure on the percentage of each
                      HHA’s beneficiaries for whom at least one other HHA billed Medicare
                      in 2010.
                   	 High average number of late episodes per beneficiary. In a sequence
                      of episodes, late (i.e., third and subsequent) episodes have higher
                      payment rates than early episodes. We based this measure on the total
                      number of late episodes each HHA billed in 2010 relative to the
                      number of beneficiaries for whom the HHA billed Medicare in 2010.
                   	 High average number of therapy visits per beneficiary. Beneficiaries
                      who require a greater number of therapy services have episodes with
                      higher payment rates. We based this measure on the total number of
                      therapy visits each HHA billed in 2010 relative to the number of
                      beneficiaries for whom the HHA billed Medicare in 2010.
                   	 High average Medicare payment amount per beneficiary. We based
                      this measure on the total payment for home health services that each
                      HHA received in 2010 relative to the number of beneficiaries for
                      whom the HHA billed Medicare in 2010.50
                   These six measures of questionable billing indicate potential fraud. There
                   may be legitimate reasons for an HHA to have unusually high billing on
                   any of our six measures. For example, a beneficiary receiving home
                   health services may live in a State with a colder climate most of the year
                   and spend the winter in a warmer State. If this beneficiary receives home
                   health services throughout the year, then at least two different HHAs
                   would legitimately bill Medicare for services provided to this beneficiary.
                   On the other hand, there are schemes in which multiple HHAs
                   fraudulently bill Medicare for services provided to the same beneficiaries.
                   Acknowledging legitimate instances of unusually high billing is necessary,
                   but it is equally necessary to examine HHAs that bill unusually high
                   amounts relative to other HHAs to determine whether such billing is
                   inappropriate or fraudulent.
                   Geographic Analysis of HHAs With Questionable Billing
                   We compared the geographic locations of HHAs with questionable billing
                   to those of other HHAs. Specifically, we determined for each State the

                   50
                        We did not account for wage adjustments based on geographical areas in this analysis.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                       10
                   total number of HHAs and the number of HHAs with questionable
                   billing.51 We then calculated the percentage of HHAs with questionable
                   billing in each State. Additionally, we determined whether States had
                   Certificate of Need policies for HHAs. We then analyzed the total number
                   of HHAs and the number of HHAs with questionable billing by States
                   with or without Certificate of Need policies.
                   Limitations
                   We did not independently verify the accuracy of the data we used for this
                   study. Further, our findings are based on an analysis of claims data, rather
                   than medical documentation; we did not determine whether the services
                   billed were inappropriate or fraudulent. For example, we did not analyze
                   the health status of beneficiaries to determine whether home health
                   services billed by HHAs with questionable billing were appropriate. In
                   addition, the measures included in our analysis are not intended to be a
                   comprehensive set of measures for identifying questionable billing.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   51
                     HHAs were located in all 50 States; the District of Columbia; and certain U.S. territories,
                   such as Puerto Rico and the U.S. Virgin Islands.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                          11
                                 FINDINGS
                                 In 2010, Medicare inappropriately paid $5 million for
                                 home health claims with three specific errors
                                 CMS has claims processing edits in place to prevent payment for home
                                 health claims with services that inappropriately overlap with claims for
                                 inpatient hospital stays or skilled nursing facility stays or that are billed for
                                 services on dates after beneficiaries’ deaths. However, Medicare
                                 inappropriately paid $5 million (out of $19.5 billion total for home health
                                 services) in 2010 for home health claims that had at least one of these
                                 three errors. The $5 million figure is based solely on our analysis of
                                 claims data for these three specific errors. It does not include any
                                 additional inappropriate payments that a medical record review or other
                                 claims analysis might find to be unreasonable or unnecessary.
                                 In 2010, 1,285 HHAs had claims with at least 1 of the 3 errors. Table 1
                                 shows the inappropriate payment amount, number of services, number of
                                 claims, and number of HHAs by the three types of errors.
Table 1: Inappropriate Medicare Payments for Home Health Services, 2010

                                                                      Inappropriate                 Number of      Number of   Number of
 Error Type
                                                                   Payment Amount                    Services        Claims       HHAs*

 Overlap between inpatient hospital stay and home
                                                                            $3,506,429                    1,722        1,309          956
 health service

 Overlap between skilled nursing facility stay and
                                                                            $1,268,433                    1,180         469           414
 home health service

 Home health service date after a beneficiary’s
                                                                              $208,311                    1,007          82            51
 date of death

     Total                                                                  $4,983,173                    3,909        1,857         1,285
*Column sum exceeds total because some HHAs had multiple types of inappropriate payments. 

Source: OIG analysis of Part A data for home health services, hospitals, and skilled nursing facilities, 2012. 




                                 Medicare inappropriately paid approximately $4.8 million for
                                 home health claims that overlapped with claims for stays in
                                 inpatient hospitals or skilled nursing facilities
                                 In 2010, Medicare inappropriately paid $3.5 million for home health
                                 claims that overlapped with claims for inpatient hospital stays and
                                 $1.3 million for home health claims that overlapped with claims for skilled
                                 nursing facility stays, for a total of $4.8 million. Nationwide, Medicare
                                 paid 956 HHAs when home health claims and claims for inpatient hospital
                                 stays inappropriately overlapped and paid 414 HHAs when home health
                                 claims and claims for skilled nursing facility stays inappropriately
                                 overlapped.



          Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                             12
                   Medicare inappropriately paid $208,311 for home health
                   services billed on dates after beneficiaries’ deaths
                   In 2010, Medicare inappropriately paid $208,311 for home health services
                   on dates after beneficiaries’ deaths. Overall, Medicare paid 82 claims for
                   50 beneficiaries for services on dates after their deaths. Two beneficiaries
                   for whom HHAs billed Medicare had been deceased for more than
                   10 years. Table 2 shows the year of death of beneficiaries for whom
                   HHAs billed for services on dates after their deaths, the total number and
                   percentage of deceased beneficiaries by year, and the inappropriate
                   payment amount by year.
                   Table 2: Beneficiaries for Whom HHAs Billed Medicare for Home Health
                   Services After Death, 2010
                                                 Number of         Percentage of Total
                    Year of                                                                       Inappropriate
                                                 Deceased                   Deceased
                    Death                                                                      Payment Amount
                                               Beneficiaries             Beneficiaries
                    1995                                     1                           2%            $11,220
                    1999                                     1                           2%              $6,507
                    2001                                     5                           10%           $20,082
                    2002                                     1                           2%            $12,630
                    2005                                     3                           6%            $14,900
                    2006                                     1                           2%            $13,331
                    2007                                     2                           4%            $15,144
                    2008                                     4                           8%            $19,987
                    2009                                     4                           8%            $16,344
                    2010                                    28                           56%           $78,166
                        Total                               50                      100%              $208,311
                   Source: OIG analysis of Part A data for home health services, 2012.


                   About half of deceased beneficiaries for whom HHAs billed Medicare for
                   services on dates after their deaths died in 2010. On average, HHAs billed
                   Medicare for such beneficiaries for services on dates about 2 months after
                   their deaths. The service date on a claim for 1 beneficiary, who died in
                   January 2010, was 275 days later, in October 2010.




Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                         13
                   Approximately one in every four HHAs had
                   questionable billing
                   In 2010, 25 percent (2,594 of 10,341) of HHAs exceeded the threshold
                   that indicated unusually high billing for at least 1 of our 6 measures of
                   questionable billing.52, 53
                   More than one-third (36 percent) of the HHAs with questionable billing
                   exceeded the thresholds for multiple measures of questionable billing.
                   Specifically, 925 HHAs exceeded the thresholds for 2 or more measures,
                   and 6 HHAs exceeded the thresholds for 5 measures. Table 3 shows the
                   number and percentage of HHAs by the number of measures of
                   questionable billing for which HHAs exceeded thresholds.
                   Table 3: Number and Percentage of HHAs by Number of Measures of
                   Questionable Billing for Which HHAs Exceeded Thresholds, 2010
                    Number of Measures of
                    Questionable Billing for Which                Number of HHAs         Percentage of HHAs*
                    HHAs Exceeded Thresholds
                    0                                                           7,747                   75%
                    1                                                           1,669                   16%
                    2                                                             680                    7%
                    3                                                             199                    2%
                    4                                                               40                  <1%
                    5                                                                6                  <1%
                    6                                                                0                   0%
                        Total                                                  10,341                  100%
                   *The percentages do not sum to 100 percent because of rounding.
                   Source: OIG analysis of Part A data for home health services, 2012.



                   For each measure of questionable billing, Table 4 shows the median
                   among all HHAs, the threshold that indicated unusually high billing, the
                   range of unusually high billing, and the number of HHAs with unusually
                   high billing.




                   52
                      Of these 2,594 HHAs with questionable billing, 299 also had at least 1 inappropriately paid
                   home health claim in 2010.
                   53
                      A Texas physician was indicted in February 2012 for allegedly certifying or directing the
                   certification of beneficiaries’ plans of care so that HHAs were able to bill Medicare for home
                   health services that were not medically necessary or were not provided. Of the HHAs
                   affiliated with this physician, 60 percent (288 of 484) had questionable billing.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                      14
Table 4: HHAs With Unusually High Billing by Measure of Questionable Billing, 2010

                                                                                              HHAs With Unusually High Billing**
                                                        Median Among All
 Measure of Questionable Billing
                                                                 HHAs*
                                                                                    Threshold          Range of Billing         Number of HHAs

 Average outlier payment amount per
                                                                           $13             $403          $404 to $5,793                        1,684
 beneficiary

 Average number of visits per
                                                                             32               91                91 to 629                        658
 beneficiary

 Percentage of beneficiaries for whom
                                                                          20%              61%             61% to 100%                           618
 other HHAs billed Medicare

 Average number of late episodes per
                                                                             <1                2                     2 to 4                      426
 beneficiary

 Average number of therapy visits per
                                                                              9               24                  24 to 70                       257
 beneficiary

 Average Medicare payment amount per
                                                                       $5,112          $11,653      $11,669 to $24,463                           173
 beneficiary
     Total                                                                                                                                   2,594***
*The median (i.e., the 50th percentile) indicates that half of all HHAs fell below this value. 

**We considered an HHA’s billing to be unusually high if it was greater than the 75th percentile plus 1.5 times the interquartile range. 

***Column sum exceeds total because some HHAs exceeded thresholds for multiple measures of questionable billing. 

Source: OIG analysis of Part A data for home health services, 2012. 





                         In 2010, 1,684 HHAs had unusually high outlier payments per
                         beneficiary
                         Overall, 74 percent (or 7,636) of HHAs had at least 1 outlier payment in
                         2010. Of those HHAs, 1,684 HHAs had outlier payments above $403 per
                         beneficiary, our threshold for unusually high outlier payments. Fifty
                         percent of all HHAs had average outlier payment amounts per beneficiary
                         of less than $13. One HHA received an average of $5,793 per beneficiary
                         in outlier payments. Ten HHAs’ average outlier payment amounts per
                         beneficiary exceeded $3,000.
                         Beginning in January 2010, total outlier payments for an HHA should not
                         have exceeded 10 percent of the HHA’s annual projected total Medicare
                         home health payments. For 72 percent (5,514 of 7,636) of HHAs with
                         outlier payments, total outlier payments were 5 percent or less of total
                         Medicare payments. However, 434 HHAs exceeded the 10-percent cap.
                         In particular, one HHA’s total outlier payments represented approximately
                         74 percent of its total Medicare payments in 2010. Almost all (429 of
                         434) of those HHAs that exceeded the 10-percent cap also exceeded our
                         unusually high threshold for this questionable billing measure.
                         Additionally, of those HHAs with outlier payments representing 5 to
                         10 percent of their total Medicare payments, 72 percent exceeded our
                         threshold for unusually high outlier payments.



 Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                                                     15
                   In 2010, 658 HHAs billed unusually high numbers of visits per
                   beneficiary
                   Six hundred fifty-eight HHAs exceeded our unusually high threshold of
                   91 visits per beneficiary in 2010. Fifty percent of HHAs billed for fewer
                   than 32 visits per beneficiary. One HHA billed for an average 629 visits
                   per beneficiary. Thirteen (out of 10,341) HHAs billed for over 300 visits
                   per beneficiary, on average.
                   In 2010, 618 HHAs had an unusually high percentage of
                   beneficiaries for whom other HHAs billed Medicare
                   In 2010, 618 HHAs had a high percentage of beneficiaries for whom other
                   HHAs billed Medicare, exceeding our threshold—61 percent—for an
                   unusually high percentage of such beneficiaries. For 50 percent of HHAs,
                   other HHAs billed for 20 percent or less of their beneficiaries. When
                   multiple HHAs bill for services provided to the same beneficiary, there is
                   potential for fraud (i.e., beneficiary sharing). For six HHAs, other HHAs
                   billed for 100 percent of their beneficiaries.
                   In 2010, for over 90 percent of beneficiaries, a single HHA billed
                   Medicare. For about 9 percent of beneficiaries, two HHAs billed
                   Medicare. For the remaining 1 percent of beneficiaries, three or more
                   HHAs billed Medicare. In the case of one beneficiary, nine different
                   HHAs billed Medicare.
                   In 2010, 426 HHAs billed for unusually high numbers of late
                   episodes per beneficiary
                   Overall, 99 percent (or 10,195) of HHAs billed Medicare for at least 1 late
                   episode—i.e., a third or subsequent episode—in 2010, meaning that such
                   HHAs billed for 3 or more consecutive episodes for at least 1 beneficiary.
                   However, 426 HHAs billed for unusually high numbers of late episodes,
                   exceeding our threshold of 2 late episodes per beneficiary. Fifty percent
                   of all HHAs billed for less than one late episode per beneficiary. Late
                   episodes have higher payment rates than early (i.e., first or second) ones.
                   Two HHAs substantially exceeded the threshold for this measure by
                   billing for an average of four late episodes per beneficiary.
                   In 2010, 257 HHAs billed for unusually high numbers of
                   therapy visits per beneficiary
                   Two-hundred fifty-seven HHAs exceeded our threshold for unusually high
                   numbers of therapy visits—24 therapy visits per beneficiary—in 2010.
                   Fifty percent of HHAs billed for fewer than nine therapy visits per
                   beneficiary. As the number of therapy visits provided during an episode
                   increases, the payment rate for the episode also increases. One HHA
                   billed for an average of 70 therapy visits per beneficiary, almost 8 times
                   the median.


Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   16
                   In 2010, 173 HHAs had unusually high payments per
                   beneficiary
                   One hundred seventy-three HHAs were paid above our threshold for
                   unusually high payments per beneficiary—$11,653 per beneficiary—for
                   services provided in 2010. Fifty percent of all HHAs had average
                   Medicare payment amounts per beneficiary of less than $5,112.
                   High-dollar per-beneficiary billing amounts may indicate that HHAs were
                   billing for services that were not medically necessary or were never
                   provided. Medicare paid one HHA an average of $24,463 per beneficiary,
                   almost five times the median. Fourteen HHAs’ average Medicare payment
                   amounts per beneficiary exceeded $15,000, almost three times the median.


                   Eighty percent of HHAs with questionable billing were
                   located in four States
                   In 2010, 80 percent (2,063 of 2,594) of HHAs that exceeded the threshold
                   that indicated unusually high billing for at least 1 of our 6 measures of
                   questionable billing were located in Texas, Florida, California, and
                   Michigan. Overall, these 4 States represented 47 percent of the total
                   number of HHAs (4,863 of 10,341) in 2010.
                   These 4 States all had more than 100 HHAs with questionable billing in
                   2010. Thirty-nine percent of HHAs with questionable billing (1,000) were
                   located in Texas. Similarly, 25 percent of HHAs with questionable billing
                   (652) were located in Florida. Table 5 shows the number of HHAs with
                   questionable billing and the percentage of the total number of such HHAs
                   for these four States. The remaining 531 HHAs with questionable billing
                   were dispersed among 37 other States. Nine States did not have any
                   HHAs with questionable billing in 2010.54




                   54
                     Additionally, no HHAs with questionable billing were located in the District of Columbia,
                   Puerto Rico, the U.S. Virgin Islands, Guam, or Saipan. Saipan is the largest island of the
                   Northern Mariana Islands, a U.S. territory.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                   17
               Table 5: States With More Than 100 HHAs With Questionable Billing, 2010

                                          Number of HHAs With Questionable                      Percentage of Total Number of
                State
                                                            Billing in State                   HHAs With Questionable Billing


                Texas                                                          1,000                                     39%

                Florida                                                          652                                     25%

                California                                                       281                                     11%

                Michigan                                                         130                                      5%

                    Total                                                      2,063                                     80%

               Note: The remaining 531 HHAs with questionable billing are located in 37 other States.
               Source: OIG analysis of Part A data for home health services, 2012.


                   Texas, Florida, California, and Michigan also do not have Certificate of
                   Need policies that limit the number of HHAs in operation. Overall,
                   97 percent (2,529 of 2,594) of HHAs with questionable billing that we
                   identified were located in States that did not have Certificate of Need
                   policies in 2010.
                   Eight States had high percentages of HHAs with questionable
                   billing
                   In 2010, eight States had high percentages, or at least two times the
                   national average of 9 percent, of HHAs with questionable billing (i.e., at
                   least 18 percent of each State’s total number of HHAs).55 Figure 1
                   highlights these eight States. Appendix A corresponds to Figure 1 and
                   shows the number and percentage of HHAs with questionable billing for
                   each State and the amount by which each State exceeded the national
                   average.




                   55
                     Nine percent is the unweighted national average, which is calculated by summing all States’
                   percentages of HHAs with questionable billing and dividing by the total number of States.
                   The weighted national average is 25 percent and is calculated by dividing the total number of
                   HHAs with questionable billing nationwide by the total number of HHAs nationwide.

Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                                 18
Figure 1: States With High Percentages of HHAs with Questionable Billing, 2010




  Source: OIG analysis of Part A data for home health services, 2012.


                        Five States far exceeded the national average, having at least three times
                        as many HHAs with questionable billing as other States. For example,
                        Florida had the largest representation of HHAs with questionable billing.
                        In Florida, 652 HHAs (or 52 percent) of the 1,251 HHAs operating in the
                        State had questionable billing in 2010. The percentage of HHAs with
                        questionable billing in Florida was nearly six times the national average.
                        Texas had the second-largest representation of HHAs with questionable
                        billing. Forty-five percent, or 5 times the national average, of the
                        2,212 HHAs in Texas had questionable billing.




 Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)       19
                   CONCLUSION AND RECOMMENDATIONS
                   In 2010, Medicare paid $19.5 billion to 11,203 HHAs for services
                   provided to 3.4 million beneficiaries. Recent investigations and prior OIG
                   studies have found that home health services are vulnerable to fraud,
                   waste, and abuse.
                   In 2010, Medicare inappropriately paid approximately $5 million for home
                   health claims that overlapped with claims for inpatient hospital stays,
                   overlapped with claims for skilled nursing facility stays, or were billed for
                   services on dates after beneficiaries’ deaths. Further, in 2010,
                   approximately one in every four HHAs exceeded the threshold that
                   indicated unusually high billing for at least one of our six measures of
                   questionable billing. Additionally, HHAs with questionable billing were
                   located mostly in four States. Two of these—Florida and Texas—also
                   each had a high number of HHAs with questionable billing relative to the
                   total number of HHAs in the State.
                   Collectively, these findings identify specific issues with Medicare
                   payments for home health services that need to be addressed to properly
                   safeguard the Medicare program. However, our review is based solely on
                   an analysis of claims data and does not include payments that a medical
                   record review, site visits, interviews with physicians and beneficiaries, or
                   additional data analysis may find to be unreasonable or unnecessary.
                   Similarly, the measures of questionable billing used in this review are
                   indicators of potential fraud. Although there may be legitimate reasons for
                   an HHA to have unusually high billing on any of our six measures of
                   questionable billing, it is important to examine HHAs that bill such
                   unusually high amounts relative to other HHAs to determine whether such
                   billing is inappropriate or fraudulent. CMS must use all of the tools at its
                   disposal to more effectively review, identify, and eliminate fraud, waste,
                   and abuse in home health services.
                   We recommend that CMS:
                   Implement claims processing edits or improve existing edits to
                   prevent inappropriate payments
                   CMS should instruct MACs that process and pay home health claims to
                   implement claims processing edits or improve existing edits to prevent
                   inappropriate payments. These edits should identify home health claims
                   that overlap with claims for inpatient hospital stays or skilled nursing
                   facility stays and flag them for further review to ensure the overlap is
                   appropriate (i.e., the service was provided on the date of admission or
                   discharge or during a leave of absence). CMS should also ensure that
                   Medicare does not pay for services on dates after beneficiaries’ deaths.


Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)    20
                   Increase monitoring of billing for home health services
                   CMS should instruct MACs and ZPICs to monitor the billing of home
                   health services by HHAs by using measures of questionable billing similar
                   to those in this report. CMS should develop thresholds for these measures
                   and instruct its contractors to conduct additional review of HHAs that
                   exceed them. CMS should also consider including these measures of
                   questionable billing in its predictive analytic work.
                   Enforce and consider lowering the 10-percent cap on the total
                   outlier payments an HHA may receive annually
                   In January 2010, CMS began capping outlier payments to individual
                   HHAs at 10 percent of total projected Medicare payments. Although this
                   cap is a first step to mitigating potential fraud and inappropriate billing of
                   outlier payments, we identified 434 HHAs that exceeded the cap in 2010.
                   CMS should properly enforce the cap on the total outlier payments that an
                   HHA may receive annually.
                   Additionally, 78 percent of HHAs with total outlier payments greater than
                   5 percent of total Medicare payments also exceeded the threshold for our
                   measure of questionable billing specific to outlier payments, indicating
                   potential fraud. CMS should reevaluate the 10-percent cap and consider
                   lowering it, if appropriate, to better prevent fraud and inappropriate billing
                   of outlier payments.
                   Consider imposing a temporary moratorium on new HHA
                   enrollments in Florida and Texas
                   Florida and Texas each had a high number of HHAs with questionable
                   billing in 2010. Additionally, the percentage of HHAs with questionable
                   billing relative to the State’s total number of HHAs exceeded the national
                   average by six times in Florida and by five times in Texas. CMS should
                   consider imposing a temporary enrollment moratorium on HHAs in these
                   States.
                   CMS should determine whether this moratorium should be imposed
                   Statewide or imposed in specific counties and/or metropolitan areas. CMS
                   should also assess and consider beneficiary access to home health services
                   when determining the geographic areas to which the moratorium would
                   apply.
                   Take appropriate action regarding inappropriate payments and
                   HHAs with questionable billing
                   In a separate memorandum, we will refer to CMS for appropriate action
                   the claims associated with inappropriate payments and the HHAs with
                   questionable billing that we identified.




Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)      21
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS concurred with all five
                   recommendations. CMS acknowledges that home health services have
                   historically been vulnerable to fraud, waste, and abuse. For this reason,
                   CMS is taking additional steps to address vulnerabilities in the enrollment
                   and claims payment process for HHAs and is building reliable models in
                   its Fraud Prevention System that can detect and generate alerts for
                   suspicious billing by all major provider types, including HHAs.
                   While concurring with our first recommendation, CMS disagreed with the
                   inappropriate payment amount the report associates with home health
                   claims that inappropriately overlapped with claims for inpatient hospital
                   stays and skilled nursing facility stays. CMS noted that in the absence of
                   individual claims analysis, it is difficult to determine whether there was
                   any financial impact from the submission of overlapping claims.
                   Additionally, CMS noted that when this overlap occurs, the home health
                   claim is rejected and nothing is paid on that initial claim submission. The
                   HHA is able to remove the overlapping visit(s) from the rejected claim and
                   then resubmit the claim for Medicare payment. However, we found that
                   CMS paid for home health claims with visits that inappropriately
                   overlapped with claims for inpatient hospital stays and skilled nursing
                   facility stays. Therefore, we continue to consider the entire Medicare
                   payment amounts as inappropriate as these claims should not have been
                   paid. CMS also stated that it will identify and correct any loopholes in its
                   current enforcement after receiving OIG’s specific claims examples.
                   With regard to our second recommendation, CMS will provide ZPICs with
                   a copy of this report. CMS will also review the measures of questionable
                   billing in this report and consider incorporating them into its Fraud
                   Prevention System models.
                   With regard to the third recommendation, CMS has taken action to fully
                   enforce the 10-percent outlier cap. In early 2011, CMS identified a
                   problem involving the calculation used to enforce the cap and has since
                   corrected this problem. Additionally, CMS plans to continue evaluating
                   home health outlier policy, including analysis surrounding the current
                   10-percent threshold, while considering the impact of lowering the cap on
                   legitimate providers.
                   With regard to our fourth recommendation, CMS is assessing a variety of
                   provider types for suitability for moratoria, including HHAs. CMS is also
                   carefully assessing the geographic areas to which moratoria would apply
                   and is evaluating issues relative to beneficiary access to care.


Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   22
                   With regard to our fifth recommendation, CMS will determine the most
                   appropriate administrative actions to take on claims containing
                   inappropriate payments identified in this report. Additionally, CMS will
                   share the HHAs with questionable billing identified in this report with
                   MACs to consider as they prioritize their work and with Recovery
                   Auditors to consider as they decide what claims to review. Recovery
                   Auditors conduct postpayment reviews of claims to identify and correct
                   improper payments.
                   We support CMS’s efforts to address these issues and encourage continued
                   progress. For the full text of CMS’s comments, see Appendix B. We
                   made minor changes to the report based on CMS’s comments.




Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)     23
                      APPENDIX A
                      Number and Percentage of Home Health Agencies With Questionable
                      Billing by State, 2010

                          	 States shaded in black had percentages of home health agencies
                             (HHA) with questionable billing four times or greater than the
                             national average.
                          	 States shaded in dark gray had percentages of HHAs with
                             questionable billing three times the national average.
                          	 States shaded in light gray had percentages of HHAs with
                               questionable billing two times the national average.
                              Number of HHAs                                Percentage of HHAs       Number of Times
                                                        Total Number of
State                        With Questionable                               With Questionable          the National
                                                          HHAs in State
                                Billing in State                                 Billing in State           Average

Florida                                      652                   1251                        52%                 5.8
Texas                                      1,000                   2212                        45%                 5.0
Utah                                          33                      82                       40%                 4.5
California                                   281                    847                        33%                 3.7
Oklahoma                                      76                     240                       32%                 3.5
Michigan                                     130                     553                       24%                 2.6
Louisiana                                     51                     217                       24%                 2.6
Ohio                                          83                     462                       18%                 2.0
Massachusetts                                 21                    135                        16%                 1.7
Nevada                                        15                      99                       15%                 1.7
Colorado                                      19                     128                       15%                 1.6
New York                                      25                     173                       14%                 1.6
Tennessee                                     20                    154                        13%                 1.4
Wisconsin                                     13                    102                        13%                 1.4
Nebraska                                       8                      70                       11%                 1.3
Indiana                                       19                    187                        10%                 1.1
Mississippi                                    5                      52                       10%                 1.1
Kansas                                        11                    115                        10%                 1.1
Rhode Island                                   2                      21                       10%                 1.1
Illinois                                      57                    625                        9%                  1.0
Connecticut                                    7                      81                       9%                  1.0
Idaho                                          3                      44                       7%                  0.8
New Hampshire                                  2                      32                       6%                  0.7
Vermont                                        1                      16                       6%                  0.7
Delaware                                       1                      18                       6%                  0.6
Missouri                                       9                    172                        5%                  0.6
North Dakota                                   1                      21                       5%                  0.5
Kentucky                                       5                    105                        5%                  0.5
                                                                                                           (continued)



   Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                    24
                            APPENDIX A (CONTINUED)



                                      Number of HHAs                                         Percentage of HHAs               Number of Times
                                                                     Total Number of
 State                               With Questionable                                        With Questionable                  the National
                                                                       HHAs in State
                                        Billing in State                                          Billing in State                   Average

 Pennsylvania                                            12                         301                           4%                           0.4
 Georgia                                                  4                         113                           4%                           0.4
 Wyoming                                                  1                           29                          3%                           0.4
 Minnesota                                                5                         151                           3%                           0.4
 Virginia                                                 6                         183                           3%                           0.4
 South Dakota                                             1                           31                          3%                           0.4
 Iowa                                                     5                         157                           3%                           0.4
 New Mexico                                               2                           71                          3%                           0.3
 Alabama                                                  4                         153                           3%                           0.3
 Arizona                                                  2                         102                           2%                           0.2
 West Virginia                                            1                           57                          2%                           0.2
 Washington                                               1                           60                          2%                           0.2
 Arkansas                                                 2                         161                           1%                           0.1
 Alaska                                                   0                           12                          0%                                --
 District of Columbia                                     0                           21                          0%                                --
 Hawaii                                                   0                           11                          0%                                --
 Maine                                                    0                           27                          0%                                --
 Maryland                                                 0                           53                          0%                                --
 Montana                                                  0                           32                          0%                                --
 New Jersey                                               0                           52                          0%                                --
 North Carolina                                           0                         182                           0%                                --
 Oregon                                                   0                           58                          0%                                --
 Puerto Rico                                              0                           40                          0%                                --
 South Carolina                                           0                           68                          0%                                --
 U.S. Virgin Islands                                      0                            1                          0%                                --
 Guam                                                     0                            4                          0%                                --
 Saipan***                                                0                            2                          0%                                --
     Total                                          2,594*                      10,341*                         9%**                                --
*Certain HHAs had two different provider States listed on claims and are counted twice. 

**This national average is unweighted and is calculated by summing all States’ percentages of HHAs with questionable billing and dividing by the

total number of States. The weighted national average is 25 percent and is calculated by dividing the total number of HHAs with questionable 

billing nationwide by the total number of HHAs nationwide. 

***Saipan is the largest island of the Northern Mariana Islands, a U.S. territory.

Source: Office of Inspector General analysis of Part A data for home health services, 2012. 





    Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                                               25
                      APPENDIX B
                      Agency Comments




      /""""' ...
     { ..tI         DEPARTMENT OF HEALTH & HUMAN SERVICES
     ,~~                                                                                                Adminisft'4 tor
                                                                                                        Washington, DC 20201




                   DATE:           JUN 2 7 2012
                   TO:             Daniel R. Levinson
                                   Inspector .General
                                                          /S/
                   J:'ROM: 	       MaNlyn 1;.!!ve!<ner
                                   Acting KclminiS\.rator

                   SunJEcr: 	 Office of Inspector Gencral (OIG) Draft Report: Inappropriate and Questionable
                              Billing by Medicare Home Health Agencies (OEl-04-! 1-00240)


                   The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                   comment on 010 Draft Report entitled, "Inappropriate and Questionable Billing by Medicare
                   Home Health Agencies" (OEI-04-11-OO240). The objectives of this study are to determine the
                   extent to which home health agencies (HHAs) submitted Medicare claims that inappropriately
                   overlapped with an inpatient hospital stay, overlapped with a skilled nursing facility (SNF) stay,
                   or were billed after a beneficiary'S death and to identify and describe HHAs that exhibited
                   questionable billing,

                   HHA services have historically been vulnerable to fraud, waste, and abuse. As such, CMS is
                   taking additional steps to address potential vulnerabilities in the enrollment and claims payment
                   process for this supplier group using the authorities granted under the Affordable Care Act l .
                                                                           2
                   Under the new screening provisions of CMS 6028-FC all newly enrolling HHAs are considered
                   a high risk provider/supplier and are, therefore, subject to unannounced site visits. The
                   Affordable Care Act also enhanced CMS' authority to suspend payments for credible allegations
                   of fraud . In February, CMS announced the suspension of payments to 78 HHAs involved in an
                   alleged fraud scheme in Dallas that was part of the February 28, 2012 Health Care Prevention
                   A(..1ion Team Strike Force takedown.

                   As part of CMS revalidation efforts, all HHAs were sent revalidation notices prior to December
                   31, 2011 and are currently in process. In addition, all HHAs are subject to an unannounced
                   physical site visit as part of the rev alidation process.

                   In addition, eMS implemented the Fraud Prevention System (FPS) in June of 2011 which
                   applies predictive analytic technology on claims prior to payment to identify aberrant and
                   suspicious billing patterns. The FPS has been running predictive algorithms and other

                   I Section 6401 of the Affordable Care Act provided the Secretary with authority to perform categorical risk-based
                   screening on providers and suppliers at enrollment and upon revalidation.
                   ' CMS 602S-FC ent itled, " Medicare, Medicaid and Children's Health Insurance Programs: Addtt lonal Screening
                   Requirements, Apptication Fees, Temporary Enrollment Moratoria, Payment Suspensions and Compliance Plans for
                   Providers and Suppliers" was published in the Federal Register on February 2, 2011.




Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)                                              26
                   APPENDIX B (CONTINUED)





Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   27
                   APPENDIX B (CONTINUED)





Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   28
                   APPENDIX B (CONTINUED)





Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   29
                   APPENDIX B (CONTINUED)





Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   30
                   APPENDIX B (CONTINUED)





Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)   31
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dwayne Grant, Regional
                   Inspector General for Evaluation and Inspections in the Atlanta regional
                   office, and Jaime Durley, Deputy Regional Inspector General.
                   Rachel Daiber served as the lead analyst for this study. Other Office of
                   Evaluation and Inspections staff from the Atlanta regional office who
                   conducted the study include David Samchok. Central office staff who
                   provided support include Kevin Farber, Scott Horning, Scott Manley, and
                   Christine Moritz.




Inappropriate and Questionable Billing by Medicare Home Health Agencies (OEI-04-11-00240)     32
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
